No.

mine
Supreme Court of the United Slates
Ashley Y.(Yoo Hyang) Kim
Pro Se Petitioner,
v.

Dr. Huong Tran, M.D.,
Psycho-Pharmacologist, Mary Ellen Smith, N.P.,
and Boston Medical Center,
Respondents,

PROOF OF SERVICE
I, Ashley Y.(Yoo Hyang) Kim, hereby certify that on this date,
Thursday, September 23, 2021, as required by Supreme Court Rule 29,1 have
served one CORRECTED copy of the PETITION FORA WRIT OF
CERTIORARI, to the U.S. Supreme Court, by a USPS Priority Mail delivery
Service.
Also, on Thursday, September 23, 2021, one CORRECTED copy of the
PETITION FOR A WRIT OF CERTIORARI, will be served to the Respondents,
to the following address'
Attorney Molly K. Corcoran
Diedrich & Donohue, LLP
84 State Street, 10th Floor
Boston, MA 02109
(617) 367-0233
I declare under penalty of perjury that the foregoing is true and correct.

Ashle^YXYoo Hyang) Kim
Pro Se Petitioner
53 Lawn Street Apt. #4
Cambridge, MA 02138
Thankyouagain@hotmail.com
(617) 229-9178
Executed on Thursday, September 23, 2021

